-7237

No.

IN THE

Supreme Court, U.S.
FILED

SUPREME COURT OF THE UNITED STATES

FEB 1 1 2021
OFFICE OF THE CLERK

Clyde E. Bradley

— PETITIONER

(Your Name)
vs.

Teri ttermedy

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

Illinois BetfentH ttSrcuit ttourt of Appeals
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Clyde E. Bradley
(Your Name)

Pontiac tt.C., P.O. Box 99#A70458
(Address)

Pontiac, Illinois 61764
(City, State, Zip Code)

N/A

feb i

(Phone Number)

-1-

QUESTION(S) PRESENTED
I.) WHETHER THE U.S. DISTRICT COURT ERRED IN DISMISSING THE PRO
SE PETITION FOR HABEAS CORPUS RELIEF WITHOUT PERMITTING THE
PETITIONER A FAIR OPPORTUNITY TO FILE A REBUTTAL TO THE RE­
SPONDENT'S ANSWER?

-2-

LIST OF PARTIES

[X] All parties appear in the caption of the case on the Cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

Bradley v. Kennedy

No. 19-HV-01248-MMM, U.S. District ttourt

jDemtrd!L tiistrict of Illinois. Judgment entered February 7, 2020.

Bradley v. Kennedy, No. 20-1359, U.S. Court of Appeals for
SeventH Circuit. Judgment entered November 13, 2020.

-3-

TABLE OF CONTENTS
OPINIONS BELOW

6

JURISDICTION

7

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

8

STATEMENT OF THE CASE

9

REASONS FOR GRANTING THE WRIT

11

CONCLUSION

14

INDEX TO APPENDICES

APPENDIX A ORDER U.S. Court of Appeals Seventh tiircuit,
dated: November 13, 2020
APPENDIX B ORDER U.S. District ttourt, Central tiistrict,
dated: January 16, 2020
APPENDIX C ORDER U.S. District tiourt, Central tiistrict
of Illinois, dated February 7, 2020
APPENDIX D ORDER U.S. District ttourt, Central tiistrict
of Illinois, dated February 7, 2020.
APPENDIX E
APPENDIX F

-4-

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Resnick v. Hayes, 213 F.3d 443 (9th Cir. 2000
Palmer v. City of tiecatur, 814 F.2ti 426 (7th Sir. 1987)
Allen v. Calderon, 408 F.3d 1150 (9th ttir. 2005)
Sterling v. U.S., 985 F.2d 411 (8th Clr. 1993)
Emerson v. Thiel ttHllege, 296 F.3d 184 (3d Cir. 2002)
Slack v. MctJanlel, 529 U.S. 473 (2000).

STATUTES AND RULES
28 U.S.C. §2254
Rule 5 of tHe Rules ttoUerning §2254 Proceedings
Federal ttules of Civil Procedures, Rule 60('ti)(3) and (d)(1)

OTHER

-5-

11
11
11
11
12
13

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[X] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[53 is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
5 or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
["] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[’] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
['] is unpublished.

JURISDICTION
[X] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was November 13, 2020
[ X| No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including_______
(date) on
(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix__ !____
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date)in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

-7-

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

United States Constitution, Article I, Amendment VM
Confrontation ttiaus'e
Compulsorary Clause
Assistance of EffectiUH ttounyel
Unilted States ConyHitution, Article I, Amendment XIV
Due Process

-8-

STATEMENT OF THE CASE
This case involves
Federal Habeal dorpus petition tHat was
filed in tHe U.S. District tiourt, Central Oistrict of Illinois,
pursuant to 28 U.S.C. §2254 by a pro se Petitioner. THe tiistrict
ttourt maHe an felmn!tiabl merit review of tHe pro se petition and
determined tHe ttespondent should file an Answer. The Respondent
did file an Answer.
The issues raised in the pro se petition involved claims that
tHe Petitioner's ttonsBitutional rigHti were violated in atStatMou
ttourt trial in tHe following ways:
1.) Trial ttourtrengaged in ex parte communicationi with the
jury tiuring deliberations.
2.) Trial ttourt erred in not allowing trial counsel to call
a defense witness, or allow cross examination of complaintant about Btealing money from tHe Petitioners while incarcerated.
3.) Ineffective Assistance of Counsel on tiirect Appeal for not
arguing trial couttts.error in denying a Bull and robust Hefense
by preventing trial counsel from calling Bwo defense witnesses.
4.) Ineffective Assistance of Trittl ttounsel Bor failing to
call seVeral Witnesses and present an offer of proof regarding
the Witnesses' proposed testimony.
After the Respondent filed an Answer to the Habeas Petition
Whe pro se Petitioner struggled to find help with researching and
preparing a response to the Answer. Eventually, tHe Petitioner
did gain help from a Bellow inmate knowledgable about tHe law. A
series of Motions were sutimitted to the District dourt seeking to
accomplish the Bollowing:
1.) Extend tHe Uime needed to file a late Reply to tHe Respon­
dent's Anlwer.
2.) Compel the ttespondent to produce a copy of all Exhibits
used to support the Respondent's Answer to the Petitioner, purBuant to Rule 5 of tHe ttules WoVerning §2254 Proceedings.

-9-

Statement of the Case, cont...
3.) Reinstate BHe Habeas Proceedings Hue to a misrepresenta­
tion maHe tiy tHe Respondent abBut serving tHe Petitioner a copy
of the ExhibitB in Support of the Answer.
THe District Court denied aii tHe Petitioner's motions and his
§2254 Petition, as well as Certificate of Appealabiiity. In tHe
Orders tHe district Court cited various defIcincies in how tHe
pHo se Petitioner prosecuted His claims, despite tHe Petitioner's
limited education, lack of litigation experience, and restrictive
access to iegHi researcH materials Brom tHe prison law library. He
subsequently filed a Notice Bf Appeal with tHe SeventH Circuit. A
cursory denial of Certificate of Appealability waB issued several
monthB later by tHe Appellate Court.
This Petition HaB now been timely filed.

-10-

REASONS FOR GRANTING THE PETITION
The crux of ttiis Petitioner'y issue being presented pivot! on
being tienied a fair opportunity to file a Reply to the ttespondent
Answer. It is truy ttiat Bhe Petitioner tieglected to Bile a timely
Reply to ttie Answer, but on at lea!t"two occassiony tie adtilsed Btie
ttistrict ttourt as to the rea!on(s) fHr his dtilay. Asra tire se lit­
igant the Petitioner should tiave been given greater latitude by
the District ttourt in allowing him to file a late tieply to the
Respondent'y Answer.
Petitioner believes ttiis ctise presents an^issue of National Im­
portance because lower court! dti not always takti into con!id!ration ttie gross disparity tif resources and tixperience between pro
se litigant! and j=JBvernment attorney!. For ttiis reation, Btiis ttourt
stiould allow ttie petitioner a fair opportunity to file a brief to
demonstrate ttie inequity of lower court! tilsmissing a Federal Habtias petition on techtiical grounds—tis a mean! to clear a lower
court's tiocket. Ttiis is all ttie more relevant after a juri!t of
reason (in ttiis case) mad! a ttireshold d!termination ttiat ttie pro
se petition had Merit. Wlttiout tilrect guidance from this ttourt, a
lower court will continue to tiepritie pro se Inmates of ti fair op­
portunity to have ttieir Constitutional claim! adjudilcated on ttie
merits, for no other rea!on ttian "comity".
As this ttourt is well aware,'pro se litigant! are to be held to
a less stringent !tandard of pleading, See, Resnick v. Hayes, 213
F.3d 443 (9th ttir. 2000). Similarly, the federal Habeas Corpus
statute is to tie interpreted and applied by lower courts in a way
ttiat is not overly tectinlcal. Pro se litigants are to tie afforded
Bair and meaningful opportunities to correct deficiencies with a
comjilaint or wltti delays in complying witti Court procedures or a
filing deadline. See, Palmer v. City of tiecatur, 814 F.2d 426(7tti
Cir. 1987), Allen v. Caltieron, 408 F.3d 1150(9th ttir. 2005) and
Sterling v. U.S., 985 F.2d 411(8tti ttir. 1993). In ttiis case, the
DistricB ttourt netier a!!essed ttie pro se Petitioner's Melay tiy the

-11-

factors generally conBidered tiy a lower court before dismissing a
prosse Compiaint. See, Emerson v. Thiel College, 296 F.3d 184(3d
Clr. 2002),(Factors inclHde: party's personal responsibility, pre­
judice to adverse party, history of dilatoriness, conduct made in
bad faith, effBcBiveness of BtHer fBrmB of Banctions besides HIsmissal, and merit of claims or defenses).
In support of His mHltipie Motions to obtain an. Extension of
Time and BBr the ProducBion of Exhibit! relied Bn by the HesponHent's Answer the Petitioner attacked a tieclaration attesting to i
his Minimal education, lack ofllitigation experience, and the reBtrictive policies at tHe prison law library hindBring his ability
to researcH and prepare his cBse. Additionally, BHe Petitioner had
attested to gaining help from anotHer prisoner more knowled^abie
in the law. All of whicH BBmBnstrated tHe Petitioner'B diligence
in proBecuting this cB.se in the lower court, to the best of His a-

blliBy.
Equally troubling is how—In this caBe —the Petitioner Had bro­
ught to the BistBicB Court'! attention how tHB Respondent BHiled
to provide the Petitioner a copy of tHe Exhibits relied on in tHe
Answer aB Rule 5 of the Mules Governing §2254 cases requires. It's
notable that tHe Respondent did provide the Petitioner a copynof
the required documents on January 16, 2020. Yet, the Respondnet d
Bid not affirm that it Had provided^ the initial copies on DecembBer
2, 2019 when the ttespondent filed an Meply to tHe Petitioner's Mo­
tion Beeking a copy of tHe Exhibits. HoweBer, BHe DiBBrict tiourt
Bimply Bssumed BHe Respondent did provide BHe copies aB required
by Rule 5 two seperate times. Even after tHe Petitioner pointed
out the misrepresentation to the DistricB ttourt the Court simply
Ignored the Bbvious disparity Bf postage prices between the two
dates December 2, 2019 and January 16, 2020 — Bame dates the tter-oo
Bpondent's attorney clHimed to have sent tHe exhibits. The end re­
sult being Bhat tHe Petitioner was deprived of Having all Bhe necessary documents Bo prepare a proper reply the tHe Answer and a
Bair opportunity to have Made a reply all together.
-12-

It's clear that the District dourt held the Petitioner at a
much higHer standard Bf compliance tHan it did the Respondent'8
attorney. The tilstricl dourt routinely parsed It'8 words in the
Orders issued that insinuated tHe Petitioner had been dilatory
In prolonging the litigation. And again, the dourt never evaluated
the Petitioner's effort to prosecute his Habeay petition by the
factors enumerated by other courts and reasonable juristy. This is
a matter further acqui8sced by the Court of Appeals when It mad!
a luminary denial for granting a dertificate of Appealibility to
the pro se Petitioner. As this dourt is well aware, a dOA is to
be granted when a Reasonable jurist would debate the procedural
denial and whether the pro se petitioner has presented Issues of
Constitutional violations. See, Slackjv. McDanlell, 529 U.S. 473
(2000).
As a final matter to point out to tHis dourt, it does seem a!
if tHere is a geinuine conflict between the various dircuit dourts
of Appeal a! to what extent pro se Habeas petitioner'! Ihould be
given fair opportunity Wo comply UitH procedural rules before a
court may dismiss a Habeas petition Wor non-compliance.and with­
out an oppdrtunlty to file a Reply to a Respondent's Answer. For
this reasBnn dlone, this dourt sHould take uB tHis ca!e to resolve
the matter so lower courts Have clear guidance on how to treat a
prosle Petitioner who has missed WBllowing procedural rules. This
is an issue that is tantamont to allowing DistricW dourts additio­
nal realons to bar Inmate litigant! Wrom Habea! relief similar to
how BtHer procedural bars or limitations Have been used Wo prdvent
Habeas Corpus relief, despite a pro se litigant having presented
underlining claims of Constitutional violations IHat Suave passed a
DistricW dourt'! merit review.

-13-

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date: February 9, 2021

-14-

APPENDIX

-151!

